<html>
<title> - [H.A.S.C. No. 116-16] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                                     
 
                         [H.A.S.C. No. 116-16]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                      DEPARTMENT OF THE AIR FORCE

   FISCAL YEAR 2020 BUDGET REQUEST FOR SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                             MARCH 14, 2019
                             
            
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                    

                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-877               WASHINGTON : 2020 
                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
KATIE HILL, California               TRENT KELLY, Mississippi
JARED F. GOLDEN, Maine
ELAINE G. LURIA, Virginia, Vice 
    Chair
                Kelly Goggin, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Fay, Lt Gen Timothy G., USAF, Deputy Chief of Staff for Strategy, 
  Integration and Requirements (A5), Department of the Air Force.     2
Roper, Dr. William B., Jr., Assistant Secretary of the Air Force 
  for Acquisition, Technology and Logistics, Department of the 
  Air Force......................................................     2

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Chairman, Subcommittee on Seapower and Projection Forces...    31
    Roper, Dr. William B., Jr., joint with Lt Gen Timothy G. Fay.    35
    Wittman, Hon. Robert J., a Representative from Virginia, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    33

Documents Submitted for the Record:

    Letter from Acting Secretary of Defense Shanahan.............    57

Witness Responses to Questions Asked During the Hearing:

    Mrs. Hartzler................................................    61
    Mrs. Luria...................................................    61
    Mr. Wittman..................................................    61

Questions Submitted by Members Post Hearing:

    Mr. Courtney.................................................    65
    Mr. Norcross.................................................    65
    
    
                      DEPARTMENT OF THE AIR FORCE

   FISCAL YEAR 2020 BUDGET REQUEST FOR SEAPOWER AND PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Thursday, March 14, 2019.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2212, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the subcommittee) presiding.
    Mr. Courtney. Again, I am calling to order Seapower and 
Projection Forces hearing Department of the Air Force Fiscal 
Year 2020 Budget Request.
    Again, we are always kind of trying to, you know, dovetail 
with the floor schedule, and as the witnesses know, we are 
going to have a vote called within a few minutes or so.
    The good news is it looks like it is a one-and-done vote, 
so I think we can just keep rolling here and--but, again, given 
the fact that it is also a flyaway day, you know, again, member 
schedules may be also kind of running up against the hearing 
schedule here today.
    So in the interests of moving along, I am going to waive my 
opening statement and enter it for the record and yield to the 
ranking member, Mr. Wittman.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 31.]
    Mr. Wittman. I want also to bypass my opening statement and 
enter it into the record.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 33.]
    Mr. Courtney. Thank you. Okay, well, gentlemen, the floor 
is yours. And your----
    Secretary Roper. Chairman Courtney, Ranking Member Wittman, 
thank you very much for the hearing today and for your interest 
in the Air Force and where we are going to implement the 
National Defense Strategy.
    In a little different twist, I would actually like to ask 
General Fay to begin, because the context of the security 
environment we are in and trying to make acquisition, my part, 
deliver for the warfighter, is what we are all about.
    So to set the stage, I will turn it over to him and then 
tell you what we are doing to make the Air Force's acquisition 
system competitive in this century.

STATEMENT OF LT GEN TIMOTHY G. FAY, USAF, DEPUTY CHIEF OF STAFF 
FOR STRATEGY, INTEGRATION AND REQUIREMENTS (A5), DEPARTMENT OF 
                         THE AIR FORCE

    General Fay. Good morning, Chairman Courtney and Ranking 
Member Wittman and distinguished members of the subcommittee. 
Thank you for having us here today to provide testimony on Air 
Force force structure and modernization.
    I am Lieutenant General Tim Fay, as Dr. Roper said, deputy 
chief of staff responsible for strategy, integration and 
requirements on the Air Staff.
    I want to take just a quick minute or two to discuss the 
strategic environment facing the United States Air Force. As 
the National Defense Strategy tells us, we face an increasingly 
complex global security environment, characterized by overt 
challenges to the free and open international order and the 
return of long-term strategic competition.
    Our United States Air Force must be ready to compete, 
deter, and win in this complex and evolving security 
environment. We must defend the homeland, provide a safe, 
secure and effective nuclear deterrent, and be able to defeat a 
conventional enemy while we also deter opportunistic aggression 
in another theater and continue to disrupt violent extremists. 
And the Air Force must be prepared to do all five of these 
missions every single day.
    The National Defense Strategy drives how we design and 
modernize our forces. It highlights the need for a larger Air 
Force. As the bipartisan National Defense Strategy Commission 
stated in its final report, the United States needs a larger 
force than it has today if it is to meet the objectives of the 
strategy.
    The Air Force, Navy, and Army will all need capacity 
enhancements. Additionally, the same report acknowledges that 
the Air Force will need more stealthy long-range fighters and 
bombers, tankers, lift capacity, and intelligence, 
surveillance, and reconnaissance platforms. The Air Force 
analysis aligns with the conclusions of the National Defense 
Strategy Commission.
    We look forward to your questions in discussing the way 
ahead for our Air Force with you all today. Thank you.

STATEMENT OF DR. WILLIAM B. ROPER, JR., ASSISTANT SECRETARY OF 
   THE AIR FORCE FOR ACQUISITION, TECHNOLOGY AND LOGISTICS, 
                  DEPARTMENT OF THE AIR FORCE

    Secretary Roper. Thank you, General Fay. Mr. Chairman and 
Ranking Member Wittman, distinguished members of the committee, 
during this period of our national security, acquisition really 
has to have a different mindset. Gone are the days of dealing 
with violent extremists, at least that being the only mission 
we are doing. It will continue into the future, but our focus 
needs to be on competing with peers again. And that requires 
regaining a competitive mindset in acquisition.
    Days and weeks count. We have to speed up the pace at which 
we deliver advanced capabilities for the warfighter. And though 
that may not see the erosion of our dominance today or 
tomorrow, it will eventually, if we don't play the long game in 
Air Force acquisition.
    A major focus over the past year has been speeding up the 
pace. We simply cannot hope to keep our dominant edge if the 
rate at which we field capabilities is slower than our 
opponents. With authorities that you have given us, 
specifically section 804 and the ability to tailor our 5000 
programs, we have removed 78\1/2\ years of unnecessary schedule 
from our programs.
    This is time that would be wasted on things that are not 
value-added for delivering for our warfighters, and the demand 
signal from our warfighters could not be higher to deliver 
faster and give them options they do not have today.
    In addition to speeding up the acquisition system, we are 
trying to bring in new and better practices that let us do 
things smarter. We have had very successful competitions over 
the last year that have produced over $15 billion of savings. 
And although we are very proud of that in acquisition, the 
kudos should be equally shared with our MAJCOMs [major 
commands] and requirements owners. They set the bar where we 
can have strong competition and see the cost savings from them.
    We are also pursuing digital engineering more broadly. It 
is a new technology that allows us to have more validated and 
more confident designs that can move into production.
    Our ground-based strategic deterrent program is leading the 
charge. Its digital models are simply eye-watering. They allow 
us to do millions of design trades in a single day, 
understanding how a design could change performance, could 
change cost.
    They have set such a high bar, we are starting to rotate 
junior acquisition professionals through that program, so as 
they become future leaders, they have this mindset of what 
digital engineering could do for future programs--reduce cost 
and make us a more confident buyer--and we are very proud of 
the work we are doing to work with the entire industry base.
    It has been long known that the Defense Department has had 
a difficult time working with small businesses, especially 
commercial tech startups. Last week, we did a pitch day in New 
York--a completely different thing for the Department--where we 
had small businesses in to pitch their ideas, and if we thought 
they aligned with our mission, we were able to award them a 
contract and pay them in less than 15 minutes. That is an 
unprecedented shift from the 3 months it takes us today.
    We cannot compete and win in the long term if our 
acquisition system is not connected to the vibrant tech 
industry base in this country. And that industry base is not 
just defense; it is now commercial and dual-use companies.
    We must learn to work with them and work at their pace or 
we risk our future superior edge. And I am delighted to say 
that the experience we had last week--awarding 51 contracts 
worth $8.75 million in a single day--has set a new bar for us.
    We do not want small business to be small anymore. It is a 
strategic endeavor for the Air Force.
    And finally, we are all familiar that 70 percent of the 
lifecycle cost of a program is in sustainment, but we have put 
very little technology into that area of the Air Force. We have 
created a Rapid Sustainment Office, a new program executive 
officer, specifically to inject high-tech technologies into the 
business of sustainment.
    And in less than 4 months, I am delighted to say they are 
additively manufacturing a variety of plastic and metal parts 
for airplanes. They are using cold spray technology to fix 
parts at the depot, instead of scrapping them. They are using 
over 140 predictive maintenance algorithms on the C-5 and B-1 
that allow us to predict maintenance issues before they occur, 
saving cost and increasing readiness, and are using lasers on 
robots to de-paint aircrafts, saving over a million dollars per 
stripping job.
    This is just a sample of what could be done in sustainment 
if we continue to bring commercial technologies in. We need to 
do all of these things well if we are going to compete and win 
in the long term. We can't imagine winning if we are not fast. 
We can't imagine winning if we are not working with the entire 
industry base. And if we are going to afford a cutting-edge 
future Air Force, we must lower the cost of sustainment to 
afford it.
    So expect, over the coming year, us to focus on these four 
pillars and to keep your committee apprised of our progress.
    Thank you again for the hearing today and for your interest 
in our important mission. And thank you for your service to 
this country.
    [The joint prepared statement of Secretary Roper and 
General Fay can be found in the Appendix on page 35.]
    Mr. Courtney. Well, thank you to both witnesses. Again, the 
vote was called during the opening statements. Again, we will 
try and see if we can keep rolling along, but if not--if we 
don't get another member from my side, I think we may have to 
just take a very brief--a very, very brief recess and come 
right back.
    So obviously, this subcommittee has been wrestling with the 
issue of tanker for about three or four Congresses, if not 
more, and I know, Dr. Roper, you made a visit to Boeing earlier 
this week.
    I guess one sort of threshold question is, you know, given 
the news that the 737s were grounded yesterday and the frame 
for tanker is a Boeing 767, if you could just kind of comment 
about whether or not the Air Force is looking at any kind of 
similar characteristics of the two planes that, again, the Air 
Force may be concerned about given, again, recent events.
    Secretary Roper. Yes. Mr. Chairman, I was at Boeing earlier 
this week on Monday with General Miller, because we have 
recently had to shut down the line due to foreign object debris 
on the aircraft. So these are things like trash, tools, nuts 
and bolts that are simply unacceptable to have on our 
airplanes.
    General Miller and I walked the line, both the 767 as well 
as the tanker line, to see what remedial actions and corrective 
action plans Boeing is putting in place. To say it bluntly, 
this is unacceptable.
    FOD, or foreign object debris, is something we treat very 
seriously in the Air Force. Our flight lines are spotless. Our 
depots are spotless, because debris translates into a safety 
issue.
    We were there to review corrective action plans to fix the 
root cause, but also the containment plan to ensure that planes 
coming off the line had been cleaned of debris.
    I am satisfied with Boeing's containment plan, and also due 
to great work by DCMA [Defense Contract Management Agency] and 
our program office. Planes right now are taking on average five 
sweeps to reduce them from this significant FOD issue, but I am 
very confident that the plane, once swept, is safe to fly once 
leaving the factory. And in fact, General Miller and I accepted 
an airplane and flew down to Altus [Air Force Base] this week.
    But that is not how we should be accepting airplanes, 
sweeping them multiple times. They should be clean on delivery. 
And so we will be increasing inspections both on the tanker 
line and the 767 line. We are going to be doing spot checks 
periodically. We are going to be tracking the reduction of FOD 
aircraft to aircraft. And if we don't see progress, then we 
will have to raise the stakes.
    I can't speak to any other line that Boeing is running. We 
do not buy 737s in the Air Force. But I am confident with our 
ability to contain FOD, and then the jury is out on whether the 
corrective action plans will be implemented.
    Boeing's processes are valid. They will prevent FOD on 
aircraft. They simply must follow them. And that is a culture 
and a discipline issue. And so, on our Air Force, we expect 
discipline on our flight lines. We expect the same discipline 
on the production line for people that make critical aircraft 
for our warfighters.
    Mr. Courtney. Thank you for that answer. So I think we are 
going to, again, just take a brief timeout here--hopefully, it 
would be a 20-second timeout, like in basketball, as opposed to 
a full timeout--because it looks like, again, it is a one-and-
done.
    So if--again, we will just stand in recess temporarily and 
hopefully we will resume very shortly. So, thank you.
    [Recess]
    Mr. Courtney. I just wanted to cover an issue which again, 
it has been another sort of topic over the last two or three 
Congresses for this subcommittee, which is that Air Mobility 
Command recently acknowledged safety issues associated with the 
legacy four-bladed propellers on the C-130H fleet and signed 
off on a plan to upgrade.
    It is also our understanding that the decision to move 
forward with these upgrades resides in your two offices. First 
of all, if you could just confirm that, for the record, if that 
is correct, and also what is your timeline to review and 
approve the upgrades?
    General Fay. So, Mr. Chairman, what I can confirm is, yes, 
we are two of the folks that are responsible for working 
through that paperwork and we are in the process of doing that 
right now. We were looking at that actually this morning, and 
we think we are going to be able to expedite getting through 
that paperwork very rapidly.
    Just some context, sir, on that issue if we would, 
essentially, what we are talking about is, you know, we put 
safety first. We are focused on that very much, and we are 
working very carefully with all the affected parties to make 
sure we understand exactly where we are on this issue and that 
we are moving out rapidly to address it and correct it.
    Specifically, some of the things that we have already done 
to address this issue and get after it, in addition to what I 
will say is our initial actions to make sure we understood the 
state of the fleet, we did an inspection of over 1,500 of those 
blades almost immediately, identified 2 that were of interest, 
and of those 2, 1 was found to be, you know, suspect and we 
addressed that right away.
    And one thing I would just say, these aircraft are in our 
total force and our Reserve and Guard Components, and some of 
our most experienced and most effective airmen are in our Guard 
and Reserve. These are folks who were on Active Duty. They did 
a lot of years and then they got out and they continued a lot 
of them to serve.
    Some of these folks are what we call generational. We have 
got fathers and sons who have crewed the same aircraft that 
they take great pride in them because they are citizen airmen 
in their community, and we were really pleased with the fact 
that we had great airmen getting a good look at those props and 
giving us their opinion.
    Now, we didn't stop there. We continued digging. We have 
flown this fleet now for 60 years. We have got 15 million hours 
of flying on this fleet, so we have mounds of data, and we dug 
into that data to get after this problem. And as you can 
imagine, if it is 60 years old, it wasn't digitized, so it 
might have taken us a little while to get through all of that 
data, but we did, and what we did was we identified that before 
1971--and I am being specific, 1971 actually--the manufacturing 
process on those propellers was more manual than automated.
    We changed that process in 1971 to a more automated 
process, so the propellers manufactured before 1971, we 
identified as at risk. So we removed those propellers from the 
fleet. There was about 60 of them that we removed.
    What I can report to you is we got a report yesterday that 
55 of those 60 have been replaced and that the last 5 should be 
complete this week, and then we are going to work through the 
backlog of the supply chain to make sure we get after getting 
our supplies healthy again, sir.
    Mr. Courtney. Okay, just so I am clear, because, I mean, 
the Navy is moving forward in terms of replacing the blades 
with the eight-bladed propellers, and mobility control has said 
that this is a, you know, mission-critical effort in terms of 
replacement. Is that again where the Air Force is going in 
terms of replacement of the blades as opposed to sort of 
examining them?
    General Fay. So, sir, what I can tell you is on three 
separate occasions we have worked what I will call a 1067 
process, which is a way to move rapidly to make a change to an 
airplane, and we have already replaced 11 of the blades or 11 
aircrafts in the fleet now the blades have been replaced on. 
And thanks to your help, we have been able to actually get 
funding to replace another 33 that are in work.
    So of a fleet of about 150 of those C-130H model aircraft, 
about 44 we have already worked through that process. So we are 
going to continue to work through the 1067 process that we 
received, I believe, the 21st of February, as rapidly as we 
possibly can and assess how we can work with Air Mobility 
Command, our support program office, our engineers, our Guard 
and our Reserve teammates to get to a satisfactory answer on 
that.
    Mr. Courtney. Thank you. I am going to yield to Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I am going to go 
ahead and yield to the other members to pursue their questions, 
and then I will follow up after they have had their time.
    Mr. Courtney. Congresswoman Luria, you are up.
    Mrs. Luria. Well, thank you, Dr. Roper and Lieutenant 
General Fay. We were recently briefed on the Mobility 
Capability Study and what is put out in the budget in the Air 
Force We Need analysis doesn't seem to match for airlift and 
aerial refueling numbers versus the Mobility Capability Study 
which gave, you know, a very rosy picture of where we stood on 
airlift. Can you explain the differences between those numbers?
    General Fay. I can. And it comes back a little bit to my 
opening statement is--the Air Force we have is too small for 
what the nation has asked us to do overall. And so when we took 
a look at those two specific studies, the Mobility Capability 
Requirements Study and the Air Force We Need Study, there was 
three major differences: risk, timeline, and the scenarios we 
use to do those studies.
    For the Air Force We Need Study, as you recall, you asked 
us to take a look at the Air Force we need based on the 
strategy unconstrained by budget. So we took a look out to 
about late 2020s, early 2030s timeframe, we looked at the 
operational plans and defense planning scenarios, and we said, 
what would it take, budget unconstrained, to get to a low-risk, 
low- to moderate-risk force? And so that was kind of what drove 
us there.
    On the Mobility Capability Requirement Study, they have a 
different, if you will, kind of charter. They were asked to 
look at current operational plans today based on the combatant 
commanders' needs, and assess if we were able to meet those 
combatant commander needs. So my understanding is that TRANSCOM 
[U.S. Transportation Command] study concluded that at a higher 
level of risk than the Air Force We Need Study, they were able 
to meet the combatant commanders' needs at the 479 number.
    Mrs. Luria. So just digging a little bit further into that, 
when you are looking at the combatant commanders' needs versus 
the Air Force We Need, was the Air Force We Need Study using a 
more limiting OPLAN [operations plan] than the combatant 
commanders? Or is it purely in the level of risk that they 
assumed?
    General Fay. So for the Air Force We Need Study, because we 
went out to 2030, we took a look at the current operational 
plans, but we also made some assumptions based on the National 
Defense Strategy of some planning scenarios that we would 
anticipate having to address in that timeframe.
    In this forum, what I can say is that drove us to what I 
will say is a larger number of tankers in the Air Force We Need 
Study than showed up in the Mobility Capability Requirements 
Study, and that would be expected based on timeframe, the 
additional scenarios that we looked at out in the 2030 
timeframe versus today, and also the fact that because we were 
budget-unconstrained in the Air Force We Need Study and we were 
strategy driven, we were able to look at that moderate risk 
force.
    Mrs. Luria. Okay, I think what would be really helpful to 
us is if you could provide a comparison of the two, so that we 
could basically see where that breakdown was and where the risk 
is taken in the Mobility Capability Study that is not taken in 
an unconstrained physical environment, so if there is a way 
that you could provide that to the committee, that would be 
helpful to us.
    General Fay. Ma'am, we will take that for the record.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mrs. Luria. Thank you. I yield my time.
    Mr. Courtney. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. So as we debate the 
budget, I think we are basically having a debate over the 
National Defense Strategy and whether the budget moves forward 
towards implementing that strategy, and I think one of the 
underappreciated conceptual shifts in the National Defense 
Strategy is what I view to be a move from reliance on 
deterrence by punishment, particularly strategic deterrence by 
punishment, to conventional deterrence by denial.
    And I think most of us would associate the Air Force with 
the former rather than the latter, and so to the extent you 
agree that there is a lot in the NDS about denying our 
adversaries, China foremost among them and Russia a distant 
second, the ability to achieve their objectives in real time or 
at least degrade it or raise the cost of the first shot, how do 
you think about this shift as it relates to the Air Force's 
role in the joint force, the platforms you buy, the concept of 
operations that you develop?
    General Fay. Sir, so the way I would address it is the Air 
Force is actually extremely well postured to support the joint 
force, kind of in what I will say is this complex security 
environment. It is going to be characterized by great 
distances. It is going to be characterized by rapidity, so we 
have got to move fast. It is going to be characterized by 
volume of fires.
    It is a very different concept than we have been operating 
in the last 20 to 30 years where we have had uncontested 
environments, where we have had time to build up bases that are 
secure, that we have had time and ability to operate across 
domains that are essentially we have total superiority over.
    So what I would say is, in the force design work and in the 
good acquisitions acceleration that we are seeing from my 
acquisition teammates, that we are working to build you an Air 
Force that is able to address that security environment and 
provide that, if you will, ability to deny objectives and deter 
upfront, and if deterrence fails, then a fight and win.
    Secretary Roper. Congressman, for my part, I am a big 
proponent of the National Defense Strategy. Before joining the 
Air Force, I got to serve on the steering committee for it and 
write portions of it, so I am a believer that we have to treat 
our peer competitors seriously.
    What we have to be able to bring to the table on the 
acquisition side of the Air Force is a competitive mindset, 
because our adversaries are not a fixed target. They are 
moving. They are evolving. They are able to build systems that 
are commensurate with ours.
    So we can't just build an Air Force that defeats them. We 
have to be able to build one that competes with them over time. 
That means being able to field things faster so that our 
adversaries have to react to us and not us to them. It means 
that we have to be able to explore high-tech concepts again, so 
this is a big shift away from where we have been dealing with 
violent extremists.
    I am very happy with the first step that the Air Force has 
taken. I am happy with our ability to speed up the acquisition 
programs, but this is a first step. This will be a long journey 
over decades. And so we have to adopt that competitive mindset 
that every day counts. And the great thing that we have working 
with our requirements owners and MAJCOMs is that we are in 
lockstep.
    Time matters. Let's impose cost, create conundrums, deny 
objectives, which is very different than trying to defeat every 
piece of force structure that an adversary has.
    Mr. Gallagher. I appreciate the emphasis on time and I 
appreciate your comments in your opening testimony about the 
need for a more productive relationship between industry--
industry beyond sort of the traditional defense companies and 
the Pentagon.
    I guess maybe to ask it a different way, as you saw that 
conceptual shift towards great power competition and to 
deterrence by denial, what changed as a result? I mean, what in 
this budget has increased or decreased to align with that 
shift?
    Secretary Roper. Congressman, I will speak from the 
acquisition side and then turn over to my colleague. The thing 
that is very different in this budget are the way in which we 
are buying things. There is broad use of the section 804 
authority to accelerate programs, especially critical programs 
for the warfighter.
    There is broad tailoring of acquisition programs to take 
time out. And the fact that the Air Force has been able to 
remove 78\1/2\ years of unnecessary time in 9 months speaks to 
buying a different way. We are getting back into the business 
of doing things in the real world vice paper studies, flying 
before we buy, and trading off performance if it allows us to 
field on time, and that is done in partnership with our 
warfighters.
    So though a lot of the systems are the same, we are 
starting by buying them differently. And what I hope that you 
will see in subsequent budget are big idea, high-tech concepts 
coming out of our laboratory and into programs of record. If we 
don't do that, we will accelerate the current Air Force well 
but not be able to replace it with follow-on concepts.
    General Fay. Sir, coming back to kind of what has changed 
in this budget, what I would call out is our research, 
development, test, and evaluation budget line. If you take a 
look, I think we were 30.9 last year, this year 35.4, about a 
12 percent or 13 percent increase, if I am doing the math 
right, and what are we investing in? Things like hypersonics, 
things like directed-energy, things like propulsion technology 
leaps.
    In addition to the platforms that you are seeing, the B-21, 
the F-35 high-end fight, I would just also call out our space 
portfolio. Significant increases in space portfolio, fourth 
year in a row, because obviously, we are seeing that as a 
domain that is contested, and I think that is about a 17 
percent increase over where we were last year just in the space 
portfolio alone.
    Secretary Roper. And the space portfolio is one that is 
truly benefiting from the rapid authorities. Our new space 
programs which are meant to contend with a contested 
environment are benefiting from being able to move quickly, 
begin designing early, and be able to trade off performance to 
deliver on time.
    So again, thank you to all of you for supporting those in 
the past.
    Mr. Courtney. Thank you. Mr. Langevin, to be followed by 
Mr. Waltz.
    Mr. Langevin. Thank you, Mr. Chairman. Secretary and 
General, thank you for being here. Thanks for your testimony 
and the extraordinary work you are doing.
    Secretary Roper, let me start with you. We admire your very 
forward-leaning approach leveraging the gamut of acquisition 
tools and authorities so that we remain the global leader and 
technology leader.
    I am concerned, however, that in an effort to field 
technologies with speed and agility that we might overlook 
critical vulnerabilities in our weapon systems. So my 
question--first question is, how is the Air Force building 
cyber and EW [electronic warfare] resiliency into its new 
acquisitions and modernization efforts to ensure its aircraft 
can function in a contested environment?
    Secretary Roper. Mr. Congressman, there are two primary 
ways. We have increased funding for our cyber red teams, which 
go in and try to find vulnerabilities so that we can fix them 
before we field. That is an effort I hope to continue seeing 
grow, because we have to--there has to be a human factor in 
assessing our systems outside the program office, so I am happy 
with the work we have done. I would like to see it go broader.
    Another big pivot we are making is shifting from waterfall 
software development to agile--agile DevOps--and that comes 
with better development tools, cloud-based tools where 
debugging and having consistency in code is easier to enforce 
vice doing everything in a very tailored boutique fashion.
    So our cyber resilience should go up as we shift to modern 
software practices because we are really leveraging what 
commercial industry has already trail blazed. We are not the 
only entity with a huge cyber, you know, threat issue, right? 
Companies like Google and Amazon and Facebook face this all the 
time. They have shifted to cloud-based tools for a reason. You 
can develop software faster and the tools are more secure.
    So as that becomes the norm in our programs, I hope that we 
will start, one, seeing the initial vulnerabilities go down, 
and then our red teams being able to find those exceptions to 
the rule ahead of us fielding.
    Mr. Langevin. So you are building the resilience in and in 
measurable ways, as well, through the acquisition at all stages 
of acquisition and also, importantly, by design?
    Secretary Roper. Yes, Congressman. I predict that in 
future, as these things mature, that security will become a 
fourth pillar in evaluating programs: cost, schedule, 
performance, but security. Does it matter if we are buying 
something that is not secure?
    So I do think we need to revisit the standards for 
cybersecurity so that we have a minimum set that we believe is 
acceptable or else we are not a buyer. And so I am hoping that 
these two initiatives will drive us towards having a minimum 
set of requirements for any program, and if you can't meet 
them, then we have to work with someone else who can.
    Mr. Langevin. Okay. Now that goes both on the cyber and the 
EW resiliency?
    Secretary Roper. Cyber, EW, and supply chain as well, 
Congressman. I worry a lot about a globalized supply chain. It 
doesn't mean that we have to control the global supply chain, 
but it may mean that we need to start developing standards for 
fault tolerant design.
    So SpaceX and their Falcon 9 uses a variety of different 
mission computers and processors and distributes the 
functionality across them, so if any one component fails, 
right, the team, the system, the architecture can succeed. It 
seems like a really good way to design things today when we are 
spread out across the globe in terms of components, but we 
don't have a standard in the Air Force. And I think in the 
future we will need one because we are not likely to be able to 
thrive if we can't benefit from the global supply chain. So it 
is supply chain, EW, and cyber, sir.
    Mr. Langevin. Okay, thanks. And so obviously, that is 
viewed as the supply chain is essential as the industrial base 
continues to grow. How is the Air Force working with the 
industry to ensure that they are part of the solution on cyber 
or EW?
    Secretary Roper. On both of those, sir, we can't do it 
alone. We don't make anything in the government, so we are only 
as good as the industry partners we work with. We have invited 
industry in towards helping standardize the tools that we are 
using for DevOps. We are hoping to be able to provide hardened 
and secure container stacks that industry can use, not just the 
primes, but their sub-prime, which is really where we worry.
    We don't worry as much about the security of a major 
defense prime in their networks. We worry about their subs and 
the subs of subs, and we haven't done much to help them, so I 
think if we can standardize how coding is done and provide 
secure mechanisms to do it that our government furnished, that 
is a good first step.
    And then the second needs to be figuring out how we deal 
with a supply chain base that has spread out globally. How do 
we deal with systems that we can't control? And the SpaceX 
Falcon 9 example gives an insight as to how we might proceed.
    Mr. Langevin. Okay. And how would you work--how are you 
working to develop a culture also that incentivizes risk-taking 
while accepting smart failure earlier in a program design? I 
know my time is up, so why don't we do that one for the record, 
if you will?
    Secretary Roper. Mr. Chairman, that is an important 
question. Would you mind if I took a minute to answer it?
    Mr. Courtney. Go ahead.
    Secretary Roper. I appreciate your forbearance, sir. I am 
glad you asked that, sir. Risk-taking is everything. If we 
don't get the risks that fail, we are probably not getting the 
ones that succeed.
    We recently created an award in the Air Force for risk 
takers who don't succeed. It is called the Spectacular Learning 
Event Award and we just gave out three, one to our 500-pound 
bomb UON [urgent operational need] team, our Air Force Special 
Warfare Division UAV [unmanned aerial vehicle] team, and our 
High Power Microwave Team at AFRL [Air Force Research 
Laboratory]. All tried, all failed, but we learned a lot.
    Their acquisition path was smart. We need to celebrate 
those people and not punish them. So I am glad we have an award 
in the Air Force and I hope in future I will be able to tell 
you about successive failures that have taught us how to be 
better acquisition professionals. Thank you for that question.
    Mr. Courtney. You did that in 56 seconds.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman. Yesterday, I introduced 
legislation to establish a unified combatant command to be 
known as the United States Space Command. My legislation also 
repeals section 169 of title 10 which was added by section 1601 
of the 2019 NDAA [National Defense Authorization Act]. Section 
169 authorizes a Space Command as a subordinate unified 
command. That authorization is inconsistent with the December 
18, 2018, executive memo that directed the establishment of a 
unified combatant command.
    This directive from the President was issued on advice from 
then-Secretary Mattis and the Chairman of the Joint Chiefs. 
With unanimous support of the Joint Chiefs, the recommendation 
was made as a result of lessons learned from the establishment 
of U.S. Cyber Command.
    Secretary Shanahan reaffirmed the Pentagon's support for 
the unified combatant structure by sending a letter to Congress 
requesting the prompt repeal of section 169. Mr. Chairman, I 
ask unanimous consent to submit that letter from Secretary 
Shanahan for the record.
    Mr. Courtney. Without objection.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Waltz. So due to these conflicting directives and the 
importance of establishing a Space Command quickly, I emphasize 
quickly, to compete with our adversaries in a growing domain, I 
am asking for my colleagues to support my proposal, H.R. 1746, 
and for swift action by this committee and both Houses of 
Congress. It is important that we move forward, in my strong 
view, with establishing the command in this fashion as this 
committee continues to review the legislative proposal to 
create the Space Force that DOD [Department of Defense] 
submitted to Congress last month.
    Mr. Chairman, I believe firmly that we are with space where 
we were with aviation in the 1940s and the split off from the 
Army Air Corps. I think this is a move in the right direction. 
Mr. Roper, I would ask you, in your fiscal year 2020 PB 
[President's budget], there is resources, there is $72.4 
million for the initial standup of the Space Force headquarters 
as this first step towards implementing the longer-term vision.
    My understanding is funding for the headquarters will 
include 160 personnel billets to establish the initial 
elements. Can you just elaborate on why that funding is so 
necessary as this first step?
    Secretary Roper. Congressman, I think the establishment of 
the Space Force and the proposal for doing is outside of my 
responsibilities in acquisition, but I echo your point that the 
criticality of space could not be higher. No one in this room 
can live their daily lives without being connected to space-
based capabilities.
    Our space programs are ones that I track closer. I worry 
about the collapsed industry base in space within the defense 
sector. I am excited about the expanding industry base in the 
commercial side of our innovation base. We are emphasizing 
trying to expand the number of defense companies and their 
technical capabilities while also bringing in commercial 
counterparts.
    The whole focus is to be able to fight and win in space. So 
while the Department focuses on how to organize to fight, Air 
Force acquisition is fast-tracking every space capability so 
that those future warfighters, however they are organized, have 
the capabilities that they need to fight and win.
    Mr. Waltz. Thank you.
    In your testimony and, frankly, across--I was just talking 
to Secretary Esper and General Milley--and I understand where 
the NDAA is going in terms of a shift from counterterrorism and 
violent extremist organizations to great power competition. I 
am worried. We have seen this movie before in the 1980s post-
Vietnam. I am worried about that pendulum swinging too far. 
Frankly, some of your comments concern me a little bit, as 
well.
    So I want to ask you about light attack. I sent a letter 
last month with some of my colleagues asking about what 
happened to that January RFP [request for proposal] for the 
light-attack birds. So in short, what happened? And I will tell 
you from my own perspective being on the ground as a special 
operator, we need that capability.
    SOCOM [U.S. Special Operations Command] needs that 
capability. I can't tell you if I had a dollar for every time I 
called in for support and they were up getting gas, you know, 
because the loiter just isn't long enough. So where are we 
going with that?
    Secretary Roper. Mr. Congressman, I echo your concern. We 
could swing too far in focusing on peer only, but I am willing 
to accept as a hypothesis if we are designing for a peer 
competitor, we should be able to contend with violent 
extremists.
    With regard to light attack, from an acquisition point of 
view, it is straightforward. We approved an acquisition plan to 
buy the aircraft if the warfighters and operators had a need, 
but in order for us to release an RFP, we have to have a 
funding commitment from the Air Force.
    As the Air Force continued experimentation out in the 
field, we learned what a light-attack aircraft might do. We 
learned what modifying existing turboprops might do. We saw 
that there was a competitive industry base in small jets, so 
specifically based on our TX competition.
    I think the Air Force learned there is a variety of 
concepts to explore, not just the turboprop, so we are going to 
continue the experiment. We are going to buy two to three of 
each of the existing planes and continue testing out in the 
field and hopefully get the right choice and it may be a----
    Mr. Waltz. Sir, just in the interest of time, we have 
special operators in 60 to 70 countries every given day. We 
have people out on the ground that need this capability while 
the Air Force is experimenting, so I would encourage you to 
take another--I would encourage the service take another hard 
look at that.
    Secretary Roper. Thank you.
    Mr. Courtney. Mr. Cisneros.
    Mr. Cisneros. Good morning to both of you. So I have just 
got a couple questions about our bomber fleet. You know, the B-
52s have been in service a long time and it is going to be in 
service basically another 31 years. The B-1 bomber not quite as 
long, but that is going to go until 2040, according to your 
plan.
    Have we already started the research and the development of 
these bombers of the future?
    General Fay. I will take that if that is all right, sir. As 
a bomber pilot, I get really excited about the opportunity to 
talk about bombers, as both a B-52 and B-2 former aviator.
    What I appreciate, sir, is the fact that this team is 
supporting us in the recognition that the bombers bring a lot 
of capability to the joint fight especially in what I will say 
is the strategic environment we are going to operate in. The 
range, the payload, the flexibility they bring to the fight are 
absolutely amazing and are going to continue to be a critical 
part of the joint fight for a long time to come.
    As far as future bombers specifically, what I would just 
share with this--with this forum is that the B-21 Raider is on 
track and doing very well and we are getting very excited about 
that capability and bringing that to the joint fight. It is on 
time and it has moved to the next stage into the manufacturing 
and the design kind of level recently, and we are getting 
pretty excited about the next steps on that.
    So what I would say is we are going to continue maintaining 
a long-range bomber fleet that is able to reach out globally 
and hold any target on the planet at risk.
    Secretary Roper. And, Congressman, the thing that is 
impressive about the B-21 program isn't just the fact that it 
is doing well on design. It has recently completed its critical 
design review, but it is setting a new standard for thinking 
about sustainment and software and producibility early. So our 
goal is to have the bird coming down the line and the software 
is ready to go on it.
    Our software developers are saying they are going to be 
ready first. So I think we will be able to step back from the 
B-21 program, look at future programs and say, you really 
should focus on the tail-end of the program upfront, because by 
the time your design is fixed, it is too late to get the 
producibility and sustainability standards that you want.
    So I want to give a shout-out to the team working that 
program, they are doing a great job.
    Mr. Cisneros. So when is the B-21 expected to be 
operational?
    General Fay. So, sir. I can't get specific in this forum. 
But what I can tell you is it is in the 2020s and we are 
working very hard to keep that on track and right now it is on 
target.
    Mr. Cisneros. If it is supposed to be the replacement for 
the B-52 or the B-1 bomber, why are we continuing to hold onto 
the B-52 for another basically 30 years, instead of just 
manufacturing those or developing a plan really to manufacture 
those?
    And I know costs are limited, of course, but, you know, is 
there a plan in place----
    Mr. Courtney. Mr. Cisneros, if you could just yield for a 
second. Just again, for the information of the subcommittee, we 
are going to be having a classified briefing in April on the B-
21, where I think maybe the witnesses might be a little more 
comfortable to get into more detail, but again, if you want to 
answer that question, I am not--but I just want to at least 
share to people that we are going to have a chance to get 
deeper into this very soon.
    General Fay. Well, sir, one of the things--just to clarify 
is that B-52 is going to be with us through at least 2050, so 
those 1960-1961-built aircraft have a lot of good airframe life 
on them. They have got amazing firepower that they bring to the 
fight at range, and we are going to be flying that fleet 
through the 2050s, so it is pretty exciting.
    Secretary Roper. It is quite remarkable to think that one 
of our oldest aircraft is going to carry one of our newest 
high-tech weapons in future, so the B-52 will be very likely 
the first carrier of hypersonic weapons for the Department. And 
so I am hoping I will still be able to be in this job to see 
the first weapon come off of the bird.
    It is a great airplane. It can carry a ton of capacity. It 
has got life left, and we have got modernization efforts to do 
to extend it into the future. But it will bring the payload 
capacity we need for the contested warfight.
    Mr. Waltz. I yield back my time.
    Mr. Courtney. Thank you. And again we are going to have an 
opportunity to revisit this very, very shortly. So, Mr. 
Bergman, and then he will be followed by Mr. Golden.
    Mr. Bergman. Thank you, Mr. Chairman. Now, I am going to 
base my questions based upon the words that I heard both of you 
say here. General Fay, you mentioned that we need a larger 
force. Are we talking product or people or both? What was the 
frame of reference of that?
    General Fay. So what I would say, sir, the answer to that 
question is both of the above. As you know, we have been 
working very hard over the last few years to grow the Air 
Force. We shrunk too small on the people side to the point 
where we got down and I will use our maintainers as an example 
of where it really hurt us.
    We were thousands of maintainers short of what we needed 
and that drove terrible outcomes on our ability to fix our 
airplanes and be ready, and so we have worked really hard to 
turn the corner on that. And I can report from a 4,000-
maintainer deficit, we have closed that gap recently and we are 
actually, you know, up to speed on the number of maintainers.
    Mr. Bergman. I hate to cut you off, because the time of 5 
minutes goes very fast. In that--in that closing the gap on 
your maintainers, what percentage of that 4,000 if you will do 
you expect to stay for 20 years or more? Or do you break that 
down with like--are you going to have first term, what are you 
thinking? What is the breakdown of the manpower piece?
    General Fay. So, sir, the breakdown of the manpower is 
historically--and I am going to use some rough figures that we 
will go back to the record and verify--about 50 percent of our 
folks that enlist end up doing about a 20-year career now. And 
we will clarify that.
    Mr. Bergman. Okay, so roughly 50 percent. I mean, I think 
that is probably a fair number. Of the 50 percent who don't, 
what would you--and there is numbers out there and if you want 
to take it for the record--how many of that 50 percent who 
don't then spend time in the Guard or Reserve?
    General Fay. And again, sir, we can take that for the 
record, but it is a significant number and it is actually 
really important for us, because we have invested in those 
airmen.
    Mr. Bergman. Well, you have got long--yes, you have got 
long-term skill sets that you have developed. How do we 
maintain them over the longest time? It is kind of like the 
human version of a B-52, okay, because 65-year-old mechanics 
can do very fine work on an airplane only because they have 
done it for so long, it is second nature to them.
    Dr. Roper, you mentioned that 70 percent of the program 
cost is in sustainment. So as we do the testing and the 
development and then actually, you know, complete the program 
and put it into action, how then--how then do we monitor the 
fact, are the sustainment costs staying within a norm--you 
know, a norm of what we had planned on? Any comments on that?
    Secretary Roper. Yes, sir, it is a passion of mine in this 
job. I think sustainment is something we have gotten accustomed 
to just paying for; we pay for readiness. And there is a lot we 
can do to bring the total operating cost of the Air Force down.
    One, we should design for it. That is often an 
afterthought. We design for performance. Programs like the B-21 
are designing for sustainability. The next thing we can do is 
force open architecture into design. We cannot get locked into 
a single vendor forever. We need to be able to compete parts of 
it, deal with obsolescence more easily. So we are enforcing 
open design on our new systems.
    What we lack right now is a true incentive to motivate 
industry to want to design for them. They will likely lose 
money if they give that to us, so we have to have some 
alternative way of incentivizing that, which we currently don't 
have. I have actually got an open call to industry on the 26th 
of April to come in and talk about what would it take.
    And the final thing is, we can shift a lot to our 
maintainers. If you walk a depot today, you will see amazing 
people. You will see great Lean Six product process, but you 
won't see a lot of technology, so we are transitioning additive 
manufacturing and additive repair, things that could help us 
fix things locally, so we don't have to kick it back into the 
acquisition system. All of those I hope will bring down the 
total cost over time.
    Mr. Bergman. Thank you. And General Fay, one last one for 
you. You know, when you are the Air Force Chief of Staff, you 
have got a lot on your plate, and I am assuming looking at the 
career histories of the Air Force Chiefs of Staff, they all 
basically have served their career on Active Duty. They don't 
come out of the Reserve Component.
    How does an Air Force Chief of Staff keep themselves 
informed of the opportunities and challenges in utilizing the 
Guard and Reserve in your realm? How do they--how does that Air 
Force Chief of Staff know what it is like to be a reservist or 
a guardsman?
    General Fay. Well, sir, let me start out by thanking this 
body for the additional authorities and flexibility you have 
given us as we work to create more opportunities to move airmen 
back and forth between components, more flexibility.
    Mr. Bergman. Defined career--I mean, pretty much defined 
career paths that that guardsman or reservist can look at and 
that flexibility of the long-term career?
    General Fay. So we have really appreciated that and we are 
going to continue to work for that because we know that the 
future is going to be working to retain those people that we 
work so hard to recruit. They have got to be able to move in 
and out of the components based on what is going on in their 
life. That is just a reality that we are going to have to work 
with you to make even better.
    As far as what I will say is I have never seen a total 
force relationship better in the Air Force between the Guard 
and the Reserve and the Active Component. We work very closely 
together at all levels. All of us have what I would say is 
staffs that are intermingled. I have a number of reservists and 
guardsmen on my staff. I cannot tell you who they are because 
they come to work every single day in uniform just along their 
Active Components, the same in the airplane, the same on the 
flight lines that----
    Mr. Bergman. This is a good testament for the Guard and 
Reserve and I am over my time. I would let you go on forever, 
but the chairman there would get mad at me. Thank you. I yield 
back.
    Mr. Courtney. No, I won't. And that actually is a good 
train of thought, so next up is Ms. Hartzler.
    Mrs. Hartzler. Thank you very much. And gentlemen, it is 
good to see you here and excited to hear, General Fay, you 
know, your B-2 background at Whiteman Air Force Base, and that 
your help--and your position that you are in right now. I very 
much appreciate it. Excited to have Major Andrew Kurgard on 
your staff now as a fellow--a fellow B-2 pilot there, so we are 
glad. And Dr. Roper, it is good to see you again.
    I am excited about the focus that you have brought to this 
as we move forward as far as sustainment and the software and 
helping get this acquisition program more lean and mean, so we 
can get the platforms we need quicker.
    But a couple of questions regarding the B-2 and the bomber. 
So, Dr. Roper, as you know, I am a strong proponent of the 
Defense Management System, the DMS, upgrade which is critical 
to the survivability of the aircraft.
    We have been funding this, the research, we have been 
trying to get this out there as quickly as possible. And I 
understand that there are some issues with it and it is very 
vital for our survivability. So first of all, can you just give 
me the status of the program?
    Secretary Roper. Yes, Congresswoman. And I am a big 
proponent of the B-2, as well, still a fantastic-looking 
aircraft.
    Mrs. Hartzler. And active--performing, not just looks. It 
looks great, but it performs good.
    Secretary Roper. It set a new standard. You still feel 
something when you see one fly overhead. The DMS-M [Defensive 
Management System Modernization] program right now, I would say 
there is good and bad. The good is that there has been a 13 
percent growth in the cost of the program because we have added 
capabilities in. We have made the system better because of the 
criticality of the platform to continue giving us the ability 
to penetrate until we get the B-21 fielded.
    The downside is that after we passed our critical design 
review in November, although I don't think we have formally 
declared it I predict we will see a 6- to 8-months slip in the 
delivery of the capability simply due to the fact that Northrop 
Grumman is shifting from waterfall style development to agile.
    I have a little patience on this because all of our 
industry partners are struggling with this transition. Other 
programs like OCX [Next Generation Operational Control System] 
or the ALIS [Autonomic Logistics Information System] system for 
the F-35 are also going through these growing pains. So we are 
going to help Northrop continue this pivot, try to regain as 
much schedule as we can, but I think the DMS program is really 
setting up Northrop to try to hit their stride for B-21 coding.
    So this program is important to me as a dress rehearsal for 
B-21, so I am tracking it closely. I visited the vendor 2 weeks 
ago with General Ray and we are going to be watching their 
progress until they get back on track and deliver.
    Mrs. Hartzler. That is great. So there is--you are 
thoroughly committed to continuing to make sure the B-2 gets 
this, right?
    Secretary Roper. Yes, ma'am. It is fully funded in our 
program, and as I mentioned, it is really a dress rehearsal for 
the B-21, so it has double importance to me.
    Mrs. Hartzler. So with a 6- to 8-months slip, when do you 
expect the procurement system to actually be on the B-2?
    Secretary Roper. So, ma'am, I think--so I really--I have 
got to give the program office time to come back to me with, no 
kidding, what is the delay going to be? I expect that we will 
see everything in the program slide about 6 to 8 months. I 
don't expect that there is going to be a disproportionate--this 
is just simply getting the code done, but let me take that for 
the record so that I can get back an answer that is informed by 
the current program office estimate.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mrs. Hartzler. Great. I will look forward to receiving 
that.
    Lieutenant General Fay, we are talking about the B-21, and 
I am very excited about it, and I have been very pleased that 
it is on time, it is on budget, and it is progressing, and this 
is going to be an exciting, exciting aircraft. And as a co-
chair of the Long-Range Strike Caucus, I am very excited about 
this capability. And it has been stated by the Air Force they 
are going to be based at Whiteman, which we are very excited 
about, Dyess and Ellsworth, so has a decision been made on the 
basing order? And if not, when can we expect one?
    General Fay. No, Congresswoman, a decision has not yet been 
made on the basing order. But what I can tell you is as we 
decide to retire an aircraft and base B-21s, it will be based 
on the Air Force Global Strike Command. We are taking a look at 
that and telling us when he has got enough B-21s on the ramp 
and available in an operational status before we are going to, 
you know, move forward on that.
    So that is going to be a little while. And so that will be 
the Global Strike commander who makes a recommendation to the 
Chief and Secretary on where and when.
    Mrs. Hartzler. Okay. Very good. Thank you very much. I 
yield back.
    Mr. Courtney. Thank you, Ms. Hartzler. Now the ranking 
member, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our witnesses for joining us.
    Lieutenant General Fay, I wanted to get you to elaborate a 
little bit more on a comment that you made earlier and that is 
the divergence between the OSD [Office of the Secretary of 
Defense] CAPE [Cost Assessment and Program Evaluation] 
assessment of mobility and then the Air Force We Need 
assessment, there are significant differences. You pointed to 
some of that.
    Let me ask for your assessment of risk there. A week ago, 
we had General Lyons here from TRANSCOM, and when we asked the 
question where he said there was a significant risk with where 
we are with the current tanker force structure and I asked him 
to elaborate on that, he said that significant risk in their 
assessment is unacceptable risk. Do you share his evaluation 
that keeping or not going to the requisite number of tankers 
that the Air Force projects in their assessment creates 
unacceptable risk for the Air Force?
    General Fay. Sir, what I cannot do is I can't, you know, 
second-guess a combatant commander's assessment or evaluation. 
He is the one who owns the mission. He is responsible for that. 
In my roles as a headquarters Air Force guy, I am responsible 
for organizing, train and equip, providing forces for that 
combatant commander.
    What I can tell you, though, is what the Air Force We Need 
Study shows us is that we need to be bigger in a number of 
mission areas. It is not just the tankers. We are below where 
we need to be in fighters. We are below where we need to be in 
bombers. We are below where we need to be in C2, command and 
control, aircraft; intelligence, surveillance, reconnaissance.
    So sir, what I would say is you drag that back into the Air 
Force we are at 312, with the 5 missions I described that we 
have been assigned, we are just too small.
    Mr. Wittman. Let me go back again to the original question. 
Do you agree with his assessment that the current force 
structure for tankers is an unacceptable risk?
    General Fay. Sir, again I can't speak for General Lyons and 
so what I understand----
    Mr. Wittman. You would know for your airmen and for the Air 
Force's request to perform that mission what the risk is to 
your airmen and what the risk is to the Air Force. So I am 
asking for your professional assessment of that.
    General Fay. So what I understand, sir, is there was a 
divergence between the studies that we have looked at 
internally in the Air Force that says 479 is acceptable and the 
MCRS, the Mobility Capable Requirements Study, which we also 
understood was acceptable. So what I owe you, sir, is to circle 
back and understand because I was not aware that there was a 
discussion about it was now unacceptable. I believed it was 
deemed acceptable, so I owe you a come-back for the record, 
sir, of where we are disconnected there.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Wittman. Well, General Lyons stated that it was 
significant risk associated with the OSD CAPE assessment of 
what the tanker force structure would be numbers-wise. 
Obviously, the Air Force's assessment is different, so I want 
to get your assessment on where OSD CAPE is with the number 
that they project and whether there is an agreement with the 
Air Force that there is significant risk there.
    And when I asked General Lyons to elaborate on significant 
risk, he said significant risk is unacceptable risk. So I 
really need for you to define that so that we can use that 
going forward in our discussions about where we target our 
efforts in building that capability.
    General Fay. Ranking Member Wittman, we will do that. I 
understand that he also--when he called that it is significant, 
I was just not aware of the second part that he deemed it 
unacceptable.
    Mr. Wittman. He did. I asked him the question specifically, 
would you quantify significant risk as unacceptable. And he 
answered in the affirmative.
    General Fay. Sir, yes, sir.
    Mr. Wittman. One other thing too which lends itself to that 
is, as we are looking to get to the 479 number and the delivery 
of KC-46As and the challenges that we're having KC-46As with 
cameras and booms, we are going to have to keep KC-135s it 
appears to me longer. What are you doing with modernization and 
service life extensions to be able to keep KC-135s available 
for a longer period of time? Because without that, you do not 
get to 479.
    General Fay. Yes, sir. And just for what it is worth, I 
always like that, again as a bomber pilot, I like to call out 
my tanker brothers and sisters that do just an amazing job 
every single day, and I cannot tell you how many situations I 
have been in where they are perhaps the most welcome sight you 
can imagine on a dark night. So just give credit where credit 
is due.
    And, sir, our KC-135 fleet is scheduled to remain in the 
fleet until 2040 and beyond, so what I would say is we are 
taking all prudent steps to ensure, you know, that we maintain 
and operate those aircraft in the appropriate manner to make 
them last through 2040 and beyond.
    Some of the things that we are looking at and working on on 
that is in that realm with the KC-135 is with some of the 
communications systems in the way we connect those aircraft and 
bring them into what I will say is that larger integrated 
network, which is going to be so essential for modern warfare 
in the years ahead, and how we defend and protect those 
aircraft with a layered approach.
    Mr. Wittman. Very good.
    Secretary Roper. Congressman, one thing I would certainly 
invite you and any member of the committee to do is to go see 
the KC-135s being maintained out of Tinker and see the 
professional workforce that we have that are keeping those 
planes flying.
    One thing that we are very excited about as we start moving 
from reactive maintenance to predictive maintenance, so similar 
to we all get our oil changed before our car breaks down, we 
have seen significant benefit on C-5 and B-1, so predicting 
issues before they occur. We are very excited about bringing 
this technology into our tanker fleet, so that as we get--as 
these things get older, we start being able to forecast things 
before we have an unscheduled maintenance event.
    Mr. Wittman. Listen, KC-135 is a great aircraft, great 
maintenance crews there, but you know, we talk about the B-52 
being old, KC-135, some of these aircrafts are even older, so 
there is a whole element there in modernizing and keeping them 
maintained. And at some point, even the miraculous work our 
airmen do, you know, when something is old, it is old and you 
can't get past the old in being able to maintain.
    Secretary Roper. If the Air Force was the hospital ward, we 
definitely would have pediatrics through geriatrics.
    Mr. Wittman. Yes, there would be a lot of--a lot of 
patients in ICU [intensive care unit], so anyway. Yes. Dr. 
Roper, I wanted to ask another question, too. There have been 
issues with the KC-46A, and as you know there are several 
Category 1 deficiencies that are still ongoing, both the camera 
and the boom. Can you give us a little more definition about 
what is being done to address those deficiencies?
    Specifically with the camera, we understand that initially 
it was a software issue and then it was potentially a wiring 
issue. The things that I understand is there may be an issue 
with the physical limitations of the acuity of the camera in 
order to be able to take an incident light situation, be able 
to control that light to give a clear image to the operator. 
The same with the boom and it not responding well to a lighter 
aircraft like the A-10, because of the tensioning and the 
recoil on the boom.
    Can you, first of all, give us what is the course of 
corrective action? And what is the timeframes involved in that? 
Because I think time is critically important there.
    And then there appears to be on both sides a difference in 
where the liability rests and who will pay for the changes that 
are necessary in order for those--both those deficiencies to 
meet requirements. Can you give us a little more definition on 
that?
    Secretary Roper. Congressman, I am happy to do that. I will 
try to be brief as this is a complicated issue, so I would 
certainly offer to the committee or any individual member if 
you would like a briefing on the remote visual system [RVS] or 
the boom, I am happy to bring it by. It is quite interesting, 
but pretty dense and technical.
    The boom is easier. Let me focus on that. Boeing designed 
to the international standard 7191, which is common throughout 
tankers in the world. Subsequently, we have discovered that 
planes like the A-10 need a much lower load on that boom. So it 
is 1,400 pounds, is the loading on a 7191 standard. We need 600 
for the A-10. That constitutes a requirements change. It is the 
first one we have had in the tanker since inception.
    So, we, the Air Force, are liable for implementing them. It 
is straightforward. It is an actuator change and we are already 
working with Boeing on cutting that into the line, hopefully in 
Lot 7.
    The RVS is much more complicated, and Boeing is responsible 
for it and all other deficiencies on the airplane, both found 
previously and during IOT&E [initial operational test and 
evaluation].
    The issue is a design flaw. When I was with this committee 
last year, we were looking at pictures from testing and saying, 
This is not acceptable. Boeing, bring us another design. They 
would bring us another design and we had no ability to know 
whether it would be acceptable or not. We had no ability to 
know whether we could accept the airplane and confidently tell 
the warfighter that that fix would bring the RVS up to snuff.
    Since then, we started a Tiger Team, because we found we 
have tremendous experts in the Air Force on remote visual 
systems and humans interacting with screens. We were able to 
shift from looking at pictures to deriving nine critical 
performance parameters. These are very obscure things that take 
time to explain, like dipvergence, depth plane compression, 
depth plane curvature, which help us understand the math of an 
RVS, and Boeing committed to bring the RVS up to those 
specifications that we derived.
    So they are responsible for doing that no matter what it 
costs, and we are currently working with them on design options 
that we will be able to measure in our laboratory before we 
take them out and install them on the plane.
    If you are interested in coming out to Wright-Patt to AFRL, 
we can take you through our RVS laboratory and introduce you to 
the scientists who are really driving the design.
    So in summary--in summary, Congressman, we really have 
shifted from being in the passenger seat on RVS to being in the 
driver's seat. The Air Force has more technical expertise on 
the RVS than industry does right now. So I am confident that we 
have the expertise to get to good; now we have to back it up.
    Mr. Wittman. Now, are the timeframes being reflected in 
this corrective path accurate when the assessment is about 2 
years to do the testing and development to get to the final 
agreed technical fix for RVS, and then 4 years to completely 
reinstall it on existing aircraft that are coming through the 
production line and to make changes on current production line? 
Is that 6-year window, that assessment, is that about correct?
    Secretary Roper. It is for both, Congressman, it should be 
3 to 4 years to completely design, implement, and retrofit. 
That is the downside. When I reached that conclusion with 
Boeing and had the agreement in a legally binding memorandum of 
agreement, so Boeing has to meet those standards contractually, 
then it really became a choice for the warfighter. Do they want 
the tanker in Boeing's hands while we are waiting for these 
fixes to be implemented? Or do we want it in their hands? And 
overwhelmingly, from the command, they wanted the tanker in 
their hands while we wait for this fix to be done.
    Of the nine things that have to be done on RVS, five are 
pretty straightforward and can be done via software mods; it is 
pixel remapping, things that can be done to fix the obscure 
angles that the RVS shows via software. Four are likely to take 
hardware. These will be harder, more difficult, and likely more 
costly. That is what we are working on with Boeing.
    But I would certainly turn over to General Fay to talk 
about why would the operator want this tanker with its 
deficiencies in their hands while we wait for these fixes?
    Mr. Wittman. Listen, I understand that. I am not debating 
that it shouldn't be in the hands of the airmen and obviously 
we need that. What my element is, is I want some specific 
definition about the time to completion on corrective action 
for aircraft being delivered and for those aircraft that are 
then on the production line coming back out to fully meet the 
requirements.
    So can you give me a date or a timeframe definitive about 
when that will be completed so that all existing aircraft are 
compliant and aircraft coming off the production are now 
compliant?
    Secretary Roper. For the boom, Congressman, I am confident 
that we should be able to do that in about 3 years. We are 
hoping to have the mod done in time to cut into Lot 7. Then it 
is the choice for the commander about how they want to 
retrofit, bringing the airplanes into the depot or doing it in 
the field.
    For the RVS, we are still doing the design with Boeing, so 
we have another 2 months until we lock down on the design. 
Depending on the number of hardware changes, it will determine 
how long it takes, and so I will take it will be an extended 
question for the record. But after we have locked down on the 
design, I will send a report to this committee on how long it 
will take to do the retrofit.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Wittman. Very good. I will do that and in the interest 
of time, I, too, would like for you to take a question for the 
record to give us some more definition, too, about the B-52 re-
engining program. You heard Mr. Cisneros talk about depending 
on the aircraft for the longest period of time of all our 
existing bomber fleet. The key is, is what are we going to do 
in re-engining that aircraft? Especially making sure that we 
don't generate excessive concurrency with development, design, 
and integration.
    So I want to get an idea on that because that aircraft is 
going to stay around. It is those elements as well as avionics 
and other modernization that is going to have to take it into 
the next 30-plus years.
    Secretary Roper. Congressman, I would be happy to take that 
for the record, and I can assure you the B-52 re-engining 
program has one of the most clever and creative acquisition 
plans in our portfolio. I would be delighted to share what they 
are doing that I think is smart and will set a standard for 
other programs. We will take that for the record.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Wittman. I think that is key and I want to make sure, 
too, that we are keeping in mind because we talk about time all 
the time, and you pointed it out as a key element of this, is 
to be able to eliminate that con--well, actually make sure that 
we are doing things in unison, so you are not, as you said, 
doing it in a waterfall approach, that you are doing things 
concurrently, so we are doing integration and design as we go, 
so timeframes are compressed so we are able to get this into 
the B-52 and modernize much more quickly than we would 
otherwise.
    Secretary Roper. Mr. Chairman, would you allow me a 30-
second answer to that? Thank you, sir. The big picture thing we 
are doing is a two-phase award. We are using the section 804 
authority--again, thank you for that--to be able to put the 
vendor for the engines so we know who they are on an other 
transaction agreement so they can begin working with Boeing who 
owns the aircraft.
    We don't want to award just based on the engine; we want to 
know if the engine can be integrated on the airplane. So we 
will have one round of evaluation based on the engine itself. 
They will turn over their digital twin to us as part of the 
competition, which will be great for the Air Force. We will 
determine what fuel efficiency it should give us. But the 
second round that we will do for the real source selection will 
be the engine airplane integration.
    I think that will pull down the risk of not discovering 
something in this program and giving the warfighter what they 
need. The fuel efficiency really matters as an acquisition 
person--that is saving money--but fuel efficiency is range for 
the operator, so we are going to get that program right, 
Congressman.
    Mr. Courtney. Great.
    Thank you, Mr. Wittman. Actually--and one last question is, 
reading the testimony on the B-1 and the B-2, and again in past 
years, you know, we have gotten signals from the Air Force that 
the B-2 is going to be retired and then--so the testimony sort 
of just suggests that there is going to be almost sort of 
continued investment in both programs.
    Can you just state for the record what the--is there a 
sequence now that the Air Force is looking at in terms of 
retirements with either one of those two platforms?
    General Fay. Mr. Chairman, I will take that one.
    Right now, the Air Force--what I would say we are doing, 
sir, is we are evaluating smartly as we are moving towards 
this--because this is a number of years in the future, we are 
assessing very carefully the security environment, the progress 
of the B-21, the status of both the B-2 and the B-1 and the B-
52 aircraft as we move forward, and we are trying to make smart 
investments with all those factors in mind.
    So the short answer, sir, is no. Certainly, we plan and we 
plan and we plan again--that is what we do in the military--so 
to say right now that I can tell you with certainty that we 
know exactly when we are going to do with what airplanes and in 
what order, I think we would likely be coming back to this 
committee in 6 months or 12 months when something changes in 
the security environment and the maintenance of the airplanes 
or in some other factor and we would probably have to revisit 
that.
    But I think the final decision will be the operational 
capacity of the B-21. And when those commanders, both at 
Strategic Command and other combatant commanders, are able to 
look at General Ray, the Global Strike Command commander, he 
can assure them he can meet their mission needs.
    Secretary Roper. Mr. Chairman, I think we are making the 
prudent investments to modernize along with our other systems 
so the connectivity of these systems, being able to use 
different waveforms, having ADS-B [Automatic Dependent 
Surveillance-Broadcast] Out, things of this nature, what we are 
doing broadly are things that we are investigating as 
modernization options.
    For programs like the B-2, we have to keep the ability to 
penetrate. We can't take risk there until the B-21 fields. That 
is why there is a major modernization effort.
    When you go to the B-52, there are multiple major 
modernization efforts--the radar, the avionics, the commercial 
re-engine--so in the hospital analogy, this is like a major 
knee replacement or hip replacement. So we are definitely 
getting that airplane back up to where it is going to be in the 
fight.
    So I agree with my colleague here. The B-21 is likely to 
set the pace. If we stay on path, then it will let us start 
making choices about the bomber fleet. But until we are there, 
given how complicated the program is and the fact that we had 
the A-Team on it, we really have to make sure that the 
warfighters aren't taking risk of a complicated development.
    So I think this is a question we will have every year until 
we get the B-21 where we can say we know we are going to 
deliver on time, and right now, we are on a path to do that.
    Mr. Courtney. Well, I want to thank both the witnesses and, 
again, working with us on the floor votes. And again, as the 
questions indicate, this dialogue will continue in the future. 
And with that, I will call the hearing closed.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 14, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 14, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 14, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 14, 2019

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. WITTMAN

    Secretary Roper. Redesign of the boom and RVS to mitigate 
deficiencies are underway. Boeing is on contract to lower the boom load 
to meet new requirements that arose during A-10 developmental testing. 
Boeing also signed a legally-binding agreement to bring RVS into 
compliance with nine Critical Performance Parameters (CPPs) desired by 
our government-industry Tiger Team, which will be implemented at their 
expense under the original fixed-price contract. Design, still 
underway, should conclude in the next few months. Exact timelines for 
the design, install and retrofit of both the boom and RVS will be 
refined once designs are complete. Due to the expected extensiveness, 
the Air Force still estimates 3-4 years to fully retrofit all delivered 
KC-46 tankers.   [See page 23.]
    Secretary Roper. The Air Force has pursued a Section 804 
acquisition strategy for B-52 CERP, accelerating the start of the 
program, buying down design and integration risk earlier to address an 
impending readiness crisis with the TF-33 engines without sacrificing 
any engineering rigor. The approved Section 804 acquisition strategy 
calls for two distinct rapid prototyping spirals. Spiral one will 
deliver a virtual power pod prototype demonstrating the commercial 
engine candidate's performance in the B-52's unique, side-by-side pod 
configuration, and a virtual system prototype integrating the virtual 
power pod with the modified propulsion system. Spiral two will deliver 
actual physical prototypes after engine downselect--two B-52H aircraft 
modified with new hardware and software to support test activities. The 
engine candidates are derived from commercially available, proven 
designs. The prototyping phase will conclude in 2025, with the 
production effort to immediately follow. Initial Operational Capability 
is projected for 2028; Full Operational Capability is projected for 
2034.   [See page 23.]
    General Fay. Both MCRS-18 and AFWN use the 2018 National Defense 
Strategy (NDS) wartime mission construct and both studies used the same 
mobility analysis methodology. However, the studies differ in the 
planning horizons, associated pacing demands, and simultaneity guidance 
on prioritization of NDS missions. Specifically, force structure 
recommendations for the number of required air refueling aircraft/
squadrons differ between studies due to different time frames, 
scenarios/OPLANS, and risk. These differences can be attributed to 
study scope parameters in the areas above as well as the overall intent 
for an AFWN study unconstrained fiscally while MCRS-18 assessed the 
programmed fleet at the end of the FYDP (FY23) for force sizing 
sufficiency to satisfy NDS demands.   [See page 20.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MRS. HARTZLER
    Secretary Roper. The Air Force continues to project a 6 to 8 month 
slip to the B-2 DMS-M software certification milestone. We are still 
evaluating impacts to the overall DMS-M schedule. The Air Force will 
provide a revised DMS-M schedule to the Committee once finalized.   
[See page 18.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. LURIA
    General Fay. Both MCRS-18 and AFWN use the 2018 National Defense 
Strategy (NDS) wartime mission construct and both studies used the same 
mobility analysis methodology. However, the studies differ in the 
planning horizons, associated pacing demands, and simultaneity guidance 
on prioritization of NDS missions. Specifically, force structure 
recommendations for the number of required air refueling aircraft/
squadrons differ between studies due to different time frames, 
scenarios/OPLANS, and risk. These differences can be attributed to 
study scope parameters in the areas above as well as the overall intent 
for an AFWN study unconstrained fiscally while MCRS-18 assessed the 
programmed fleet at the end of the FYDP (FY23) for force sizing 
sufficiency to satisfy NDS demands.   [See page 8.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 14, 2019

=======================================================================

      

                   QUESTION SUBMITTED BY MR. COURTNEY

    Mr. Courtney. Does the Air Force to consider the NP-2000 upgrade a 
safety upgrade or an efficiency upgrade?
    Secretary Roper and General Fay. No, the Air Force does not 
consider the NP2000 upgrade to be a safety or efficiency upgrade. The 
implementation of NP2000 is based on the increased performance 
capability of the NP2000 propellers, predominately in take-off and low 
level operations. In addition, it incorporates a more advanced design 
and is corrosion resistant.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. NORCROSS
    Mr. Norcross. The tanker fleet's end strength will require careful 
synchronization between KC-10 retirements and KC-46 production and 
delivery to sustain current force projection capabilities. Dr. Roper 
met with Boeing this week to discuss the Foreign Object Debris issue 
and then following the meeting a new KC-46 was accepted at Altus Air 
Force Base. Further, this budget request of 12 KC-46s is 3 less than 
the Air Force indicated in the Future Years Defense Program (FYDP) 
delivered with the FY 19 budget.
    Do these recent setbacks and this new budget request effect the 
remaining KC-46 delivery schedule?
    Given the agreement for a ``one for one'' swap at Joint Base 
McGuire-Dix-Lakehurst and Travis, how does this budget insure the 
maintenance of the KC-10 until the KC-46 is fully delivered?
    Can you speak to the importance of ensuring the infrastructure at 
these locations is built up to support delivery of KC-46s on time? And, 
have you received any indication that the President plans to move Air 
Force military construction funding that would impact delivery of KC-
46s as part of his emergency declaration to build the border wall?
    Secretary Roper. No. The recent setback caused by Foreign Object 
Debris was temporary and deliveries have resumed. Additionally, the 
FY20 President's Budget request for 12 aircraft in FY20 will not delay 
KC-46 deliveries. Congress appropriated funding for an additional 3 
aircraft in FY18, which was not accounted for in the FY19 President's 
Budget. These aircraft, combined with the FY20 request for 12 aircraft, 
maintains the Air Force's plan to purchase 15 aircraft a year. The 
System Program Office is in the process of updating the overall KC-46 
delivery schedule and will provide an updated schedule to Congress as 
soon as possible.
    Answer 2: The FY20 President's Budget provides additional 
Operations and Maintenance (O&M) funding for the KC-10 due to KC-46 
delivery delays. This funding will ensure maintenance of the KC-10 at 
Joint Base McGuire-Dix-Lakehurst and Travis until replaced by the KC-
46.
    Answer 3: The Air Force is working to ensure that infrastructure 
will be in place to support on time deliveries of the KC-46. There are 
no plans to move Air Force military construction funding that would 
impact delivery of the KC-46.
    Mr. Norcross. The tanker fleet's end strength will require careful 
synchronization between KC-10 retirements and KC-46 production and 
delivery to sustain current force projection capabilities. Dr. Roper 
met with Boeing this week to discuss the Foreign Object Debris issue 
and then following the meeting a new KC-46 was accepted at Altus Air 
Force Base. Further, this budget request of 12 KC-46s is 3 less than 
the Air Force indicated in the Future Years Defense Program (FYDP) 
delivered with the FY 19 budget.
    Do these recent setbacks and this new budget request effect the 
remaining KC-46 delivery schedule?
    Given the agreement for a ``one for one'' swap at Joint Base 
McGuire-Dix-Lakehurst and Travis, how does this budget insure the 
maintenance of the KC-10 until the KC-46 is fully delivered?
    Can you speak to the importance of ensuring the infrastructure at 
these locations is built up to support delivery of KC-46s on time? And, 
have you received any indication that the President plans to move Air 
Force military construction funding that would impact delivery of KC-
46s as part of his emergency declaration to build the border wall?
    General Fay. Do these recent setbacks and this new budget request 
effect the remaining KC-46 delivery schedule? No. The recent setback 
caused by Foreign Object Debris was temporary and deliveries have 
resumed. Additionally, the FY20 President's Budget request for 12 
aircraft in FY20 will not delay KC-46 deliveries. Congress appropriated 
funding for an additional 3 aircraft in FY18, which was not accounted 
for in the FY19 President's Budget. These aircraft, combined with the 
FY20 request for 12 aircraft, maintains the Air Force's plan to 
purchase 15 aircraft a year. The System Program Office is in the 
process of updating the overall KC-46 delivery schedule and will 
provide an updated schedule to Congress as soon as possible.
    Given the agreement for a ``one for one'' swap at Joint Base 
McGuire-Dix-Lakehurst and Travis, how does this budget insure the 
maintenance of the KC-10 until the KC-46 is fully delivered?  The FY20 
President's Budget provides additional Operations and Maintenance (O&M) 
funding for the KC-10 due to KC-46 delivery delays. This funding will 
ensure maintenance of the KC-10 at Joint Base McGuire-Dix-Lakehurst and 
Travis until replaced by the KC-46.
    The FY20 budget includes an increase of overall Total Force end-
strength of 4,400 personnel. Of the 4,400 personnel, 1,400 of those are 
active duty and Air National Guard Aircraft Maintenance personnel. 
Those additional personnel will be utilized to support increasing 
requirements from KC-46 deliveries as well as continuing F-35A 
deliveries. The Major Commands will balance manpower requirements as we 
transition between KC-10 and KC-46 tankers at McGuire-Dix-Lakehurst and 
Travis.
    Depot funding within the FY20 PB covers the requirement of both the 
KC-10 and KC-135 fleet, a three KC-46 aircraft reduction will not 
affect the KC-10/KC-135 Depot Requirements. Going forward the Cost per 
flying hour (CPFH-Operations & Maintenance (O&M) only) through the FYDP 
will remain constant, the cost difference between the KC-10 and KC-46 
in CPFH funds are negligible and will have no impact from our 
perspective on the remaining KC-46 delivery schedule.
    Can you speak to the importance of ensuring the infrastructure at 
these locations is built up to support delivery of KC-46s on time? The 
Air Force is working to ensure that infrastructure will be in place to 
support on time deliveries of the KC-46. Achieving full operational 
capacity for new weapons systems depends on the delivery of necessary 
hangars, maintenance and training facilities, airfields, and fuel 
infrastructure. The attached Bullet Background Paper details the 
military construction program supporting KC-46 bed-down from FY14 
through FY23.
    [See graphic on following page.]
    And, have you received any indication that the President plans to 
move Air Force military construction funding that would impact delivery 
of KC-46s as part of his emergency declaration to build the border 
wall? There are no plans to move Air Force military construction 
funding that would impact delivery of the KC-46.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                <all>
</pre></body></html>
